            Smithsonian Institution
            Office of the Inspector General


            In Brief                     Pseudo Social Security Numbers for Foreign Nationals
                                         Report Number M-05-03, December 5, 2005




Why We Did This Study                   What We Found

We received a complaint that            More than 123 of the foreign national employees employed by STRI today, who
employees at the Smithsonian            are paid through Tecnasa (a Panamanian company), have accounts with the
Tropical Research Institute             Agriculture Federal Credit Union that were established with pseudo SSNs.
(STRI) were using what appeared         Additionally, eight employees who are paid by the National Finance Center also
to be fraudulent Social Security        have SSNs in the 800 series. An unknown number of retired employees may also
Numbers (SSN) to open accounts          have U.S. bank accounts established with pseudo SSNs. We determined that
with the Agriculture Federal            pseudo SSNs used to open accounts with the Agriculture Federal Credit Union
Credit Union. These SSNs are in         were not fraudulently obtained, but were created by STRI as a way to process
the 800 series—a series that had        payroll for foreign national employees who did not have nine-digit SSNs.
not formerly been used by the
Social Security Administration.         STRI began using pseudo SSNs over 30 years ago for its Panamanian employees,
Our review determined whether           who were not U.S. citizens or did not have SSNs. At that time, STRI created an
employees were using                    SSN for STRI employees in the 800 series to complete the required nine-digit data
fraudulently obtained                   fields in the (then) Institution’s in-house payroll system. Since that time STRI
identification numbers, and             has switched from an in-house payroll system to the National Finance Center and
examined the construction of            Tecnasa payroll systems. Currently 374 STRI employees are paid by the National
STRI employee identification            Finance Center, which uses the pseudo SSNs for pay purposes, and 335 are paid
numbers.                                by Tecnasa, which does not.

What We Recommended                     Recently, the Social Security Administration began issuing SSNs in the 800 series
                                        that are or will be identical to those of STRI employees whose payroll is processed
We recommended that STRI cease          through the National Finance Center. Consequently, the Institution will need to
issuing pseudo SSNs to                  identify a different solution for processing the payroll of its foreign national
employees, and that the                 employees. For example, employees could be required to obtain an Individual
Institution work with appropriate       Taxpayer Identification Number from the U.S. Internal Revenue Service, data
parties to resolve the conflicts that   which would satisfy the nine-digit field required by the National Finance Center
could arise from issuing SSNs that      system. A similar arrangement may be required to accommodate retired STRI
may be identical to those issued        employees who were issued pseudo SSNs and have active accounts with the
by the Social Security                  Agriculture Federal Credit Union.
Administration.

Management agreed with our
findings and recommendations,
and has notified the National
Finance Center of the need to
create an alternate means of
constructing employee
identification numbers. The
National Finance Center is also          For additional information or a copy of the full report, contact the Office of the
pursuing the issue with the Office       Inspector General at (202) 275-2244 or visit http://www.si.edu/oig.
of Personnel Management.
